Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants 
to the Inglewood Police Department, California
GR-90-01-007
February 6, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Inglewood, California Police Department (IPD). The purpose of the grants is to enhance community policing.  The IPD was awarded a total of $450,000 to hire 5 new police officers and redeploy the equivalent of 16 existing full-time police officers from administrative duties to community policing.

We found the Inglewood Police Department to be in non-compliance with COPS' grant requirements pertaining to local match requirements, redeployment tracking, retention of officer positions, community policing, and grantee status reporting.  As a result, we question $450,000 in grant funds received. 1

The IPD did not meet its local match requirements for the AHEAD and MORE 95 grants.

	The IPD did not retain the sworn officer positions funded by the AHEAD grant and had not documented the retention of the sworn officer full-time equivalents (FTEs) redeployed through the MORE 95 grant.

	The IPD could not document the actual redeployment of sworn officer FTEs into community policing activities.

	The IPD did not enhance community policing by the number of sworn officers and FTEs funded by the AHEAD and MORE 95 grants.

	Several of the IPD's status reports were either not accurate, not filed timely, or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.





Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.